1a

APPENDIX A
Supreme Court of Pennsylvania
Middle District
No. 419 MAL 2019
MING WEI, Petitioner,
v.
STATE CIVIL SERVICE COMMISSION
(PENNSYLVANIA DEPARTMENT OF HEALTH),
Respondent.
January 22, 2020
Ming Wei, for Petitioner, Pro Se.
Jonathan David Koltash, PA Department of
Health, for State Civil Service Commission
(Department of Health), Respondent.
Yvette Marie Kostelac, PA Department of Health,
for State Civil Service Commission (Department of
Health), Respondent.
Petition for Allowance of Appeal from the Order of
the Commonwealth Court.

ORDER
PER CURIAM.
AND NOW, this 22nd day of January, 2020, the
Petition for Allowance of Appeal is DENIED.

1

2a

APPENDIX B
Commonwealth Court of Pennsylvania
No. 1321 C.D. 2018
Ming Wei, Petitioner,
v.
State Civil Service Commission (Pennsylvania
Department of Health), Respondent.
June 21, 2019
Ming Wei, for Petitioner, Pro Se.
Jonathan David Koltash, PA Department of
Health, for Respondent, Pennsylvania Department
of Health.
ORDER
NOW, June 21, 2019, upon consideration of
petitioner's application for reconsideration, the
application is denied.

-1-

APPENDIX C
Commonwealth Court of Pennsylvania.
No. 1321 C.D. 2018
Ming Wei, Petitioner,
v.
(Pennsylvania
Commission
State Civil Service
Department of Health), Respondent.
Submitted: March 1, 2019.
Filed: May 9, 2019.
Ming Wei, for Petitioner, Pro Se.
Jonathan David Koltash, PA Department of
Health, for Respondent, Pennsylvania Department
of Health.
OPINION NOT REPORTED
MEMORANDUM OPINION
PER CURIAM.
Ming Wei (Wei) petitions for review of the
September 20, 2018 order of the Pennsylvania
State Civil Service Commission (Commission)
denying Wei's motion to reopen his case and
determining that his alleged newly discovered
evidence was available to him when he filed
previous motions to reopen based upon alleged
newly discovered evidence.
Background and Procedural History
-1-

4a

This matter is one of now four related appeals filed by Wei, pro se, from orders of the Commission
initially dismissing Wei's appeal challenging his
termination and denying his three subsequent
motions to reopen the case based on alleged newly
discovered evidence. Wei appealed the Commission's first three orders to this Court and each
time we affirmed. Wei now seeks review of the
September 20, 2018 order of the Commission
denying his third motion to reopen and
determining that none of Wei's alleged newly
discovered evidence was unavailable to him at the
time he filed his prior motions to reopen.
This Court's decisions in those prior appeals, Wei
v. State Civil Service Commission (Department of
Health). 961 A.2d 254 (Pa. Cmwlth. 2008) (Wei I
1, Wei v. State Civil Service Commission (Department of Health) (Pa. Cmwlth. No. 263 C.D. 2015,
filed September 18, 2015) ( Wei .11), and Wei v. State
Civil Service Commission (Department of Health
) (Pa. Cmwlth. No. 1902 C.D. 2016, filed September
1, 2017) ( Wei II1), establish the following history of
this dispute.
Wei worked as an epidemiologist and was the
data manager for the Pennsylvania Department of
Health's (Department) human immunodeficiency
virus and acquired immune deficiency syndrome
(HIV/AIDS) epidemiology team. Wei was responsible for transferring data to different formats. On
May 16, 2007, Wei was given a direct order to
complete the 2005 backlog data assignment within
six weeks. By letter dated September 4, 2007, Wei
was discharged from employment, effective
-2-

September 7, 2007, for insubordination and
unsatisfatory work performance.' The termination
letter stated that Wei failed to complete the
backlog data format conversion assignment given
to him by July 21, 2007. Wei g slip op. at 2.
Wei appealed his discharge to the Commission
which, following a hearing, dismissed the appeal by
adjudication and order dated March 7, 2008. Specifically, the Commission stated as follows:
The [C]omission finds that the appointing authority's evidence established that by failing to
complete the HARS 2 HIV/AIDS data conversion
assignment, [Wei] exhibited unsatisfactory work
performance and insubordination. [Employer's
Witnesses] credibly testified that this assignment was [Wei's] responsibility, and his alone.
[Employer's witness'] credible testimony, and
the evidence offered by the April 9, 2007 e-mails,
shows that [Wei] was insubordinate in refusing
for six months to accept this responsibility and
complete the assignment. We are not persuaded
by [Wei's] arguments that his failure to complete
Wei had previously received written reprimands on April 4,
2007, for failing to attend a pre-scheduled team meeting
without notifying his supervisor; May 23, 2007, for failing to
complete his work on time; and July 2, 2007, for sending an
inappropriate e-mail to his supervisor alleging an abusive
work environment that caused him to have health problems.
Wei had previously been suspended from July 23-27, 2007, for
failure to complete the 2005 backlog data task, inappropriate
behavior, and insubordination. Wei II, slip op. at 2.
2 The HARS acronym appears to refer to the "HIV/AIDS
Reporting System." (Reproduced Record (R.R.) at Doc. B, p.
14.)

-3-

6a

his assignment was not his fault, but rather, the
fault of the appointing authority. [Employer's
witness] offered ample, credible, evidence that
she helped [Wei] with the assignment by
transferring some of his job duties to other staff
members as he requested, thereby lightening his
workload. We also accept as credible [Employer's
witness'] testimony that she did not stop [Wei]
from training other people to help him with his
duties, nor did she deny [Wei] any training he
may have needed to complete the assignment.
The Commission is not persuaded by [Wei's]
argument that he needed more time and more
help to complete the assignment, especially in
view of the fact that he did not show any
significant progress on it for six months, and we
accept [Employer's witness'] testimony that he
did not show her the 424,498 records that he
claimed he converted. The picture that emerges
from the testimony is one of consistent
insubordination and unsatisfactory work
performance in that despite the appointing
authority's help, and a written reprimand and a
suspension, [Wei] neither completed nor made
any substantial progress toward completing the
assignment by the July 31, 2007 deadline.
[Wei's] insubordination and unsatisfactory
work performance provided just cause for his
removal because it had a direct impact on his job
performance, and directly involves his competence and ability as an Epidemiologist.
Wei II, slip op. at 2-3 (quoting Commission's
adjudication and order at 24-25).
-4-

In Wei .1 this Court affirmed the Commission's
denial of Wei's appeal challenging his termination.
Specifically, we held that the Commission did not
err in: determining that Wei was not entitled to an
interpreter at the Commission's hearing pursuant
to 28 U.S.C. §1827; limiting the testimony to only
questions and responses concerning the data conversion process to be used by Wei during the time
period that he was assigned his tasks that he did
not successfully complete; crediting the testimony
of the Department's witnesses; determining that
Wei was given ample time and resources to
complete his tasks; determining that Wei's removal
was not discriminatory; and concluding that the
Department's witnesses offered consistent
testimony during the Commission's hearing and
the hearing before the Unemployment Compensation Board of Review. Wei I. 961 A.2d at 255-61.
On December 17, 2014,3 Wei filed a motion with
the Commission to reopen the case based on
3 Wei filed suit in United States District Court for the Middle
District of Pennsylvania on April 13, 2011, alleging violations
of Title VII for retaliation and national origin/racial
harassment and discrimination; the Civil Rights Act of 1964,
42 U.S.C. §§1983, 1985, for defamation and intentional
infliction of emotional distress; the Pennsylvania Human
Relations Act (PHRA), Act of October 27, 1955, P.L. 744, as
amended, 43 P.S. §§951-963, based on discipline during his
employment and termination; and the United States
Constitution for deprivation of property/due process. On June
6, 2012, the district court dismissed his counts under 42
U.S.C. §1983 for intentional infliction of emotional distress,
discipline, and termination; his PHRA counts; and his
deprivation of property/due process claim. Wei v.
Pennsylvania Department of Health, No. 1:11-CV- 688, 2012

-5-

8a

alleged newly discovered evidence. By order dated
January 21, 2015, the Commission denied the
motion. Citing Fritz v. Department of Transportation, 468 A.2d 538 (Pa. 1983), the Commission
found that Wei's alleged newly discovered evidence
, inter alia, internal e-mail conversations that both
included and did not include Wei, meeting minutes,
and Department policies and reports, *as neither
concealed by fraud nor otherwise unavailable to be
discovered by Wei at the time of his original
administrative hearing. Accordingly, the
Commission determined that the alleged newly
discovered evidence did not meet the standard
necessary to grant Wei's motion to reopen the case.
On February 10, 2015, Wei filed an application for
reconsideration, which the Commission denied by
letter dated March 12, 2015. Wei filed a petition for
review with this Court as well as a separate motion
for sanctions. Wei II, slip op. at 4.
In Wei II, we affirmed the Commission's denial
of Wei's application to reopen the case. In doing so,
WL 2049488 (M.D. Pa. June 6, 2012). The status of this case
is unclear from the record.
Wei also filed a complaint against the Department and
various Department employees in the Dauphin County Court
of Common Pleas on July 22, 2011, challenging his dismissal.
By order dated August 25, 2014, the common pleas court
dismissed Wei's complaint for lack of jurisdiction based on
Wei's failure to effectuate proper service of the complaint.
Wei appealed to this Court, and, on June 18, 2015, we
affirmed the order of the common pleas court. Wei v.
Department of Health, (Pa. Cmwlth., No. 1500 C.D. 2014,
filed June 18, 2015).

-6-

9a

we reasoned that Wei filed his motion to reopen
after an adjudication had been issued and that the
Commission did not abuse its discretion in determining that his alleged newly discovered evidence
was not fraudulently concealed or otherwise
unavailable at the time of his original
administrative hearing. The Court also denied
Wei's motion for sanctions in an order dated
September 22, 2015. Wei then filed a motion for
reconsideration and a petition for allowance of
appeal,4 both of which were denied.
On September 21, 2016, Wei filed a second
motion to reopen the case, arguing that newly
discovered evidence contradicted key testimony of
the Depart- ment which supported the just cause to
terminate him. On November 18, 2016, the
Commission again dismissed Wei's appeal, stating
the following:
This is [Wei's] second request for the Commission to Reopen and reconsider its original
adjudication of this 2007 appeal based on alleged
"newly discovered evidence." The Commission
has carefully reviewed [Wei's] current motion
and finds therein no evidence that was not also
available to [Wei] when his previous motion to
reopen this appeal based on newly discovered
evidence was filed by him on December 17, 2014.
That motion was denied by the Commission by
Order dated February 6, 2015.... In the absence
of any additional evidence which was not
Wei v. State Civil Service Commission (Department of
Health). 134 A.3d 58 (Pa. 2016) (unpublished table decision).

4

-7-

1 Oa

already available to [Wei] for inclusion in his
December 17, 2014 Motion to Reopen, this
second Motion to Reopen is found to be frivolous
and is accordingly denied on that basis.
The appointing authority has asked the
Commission to bar [Wei] from filing another
future Motion to Reopen, but has cited no legal
authority which would empower the
Commission to issue such an order; nor is the
Commission awa- re of any statute conferring
upon it such power. Accordingly, the appointing
authority's request is denied. However, the
Commission notes that this Motion to Reopen is
frivolous and that it will also find similar
Motions to Reopen filed in the future which are
also not supported by actual new evidence, to be
likewise. Should [Wei] take an appeal from this
order to the Commonwealth Court, the
Commission is of the belief that sanctions
applicable to frivolous appeals, which the
Commonwealth Court does have the power to
impose, ought to be requested by the appointing
authority, and considered by the Court. See: Pa.
R.A.P. 2744.
(Commission's 2016 order at 1-2.)
Wei thereafter filed a petition for review with
this Court as well as a separate motion for
sanctions. In Wei III, we once again affirmed the
Commission' s denial of Wei's application to reopen
the case. In doing so, we reasoned that Wei filed his
motion to reopen after an adjudication had been
issued and that the Commission did not abuse its
discretion in determining that his alleged newly
-8-

118

discovered evidence, which consisted, inter alia, of
various "admissions" and stipulations by the
Department in the federal case, e-mails and
meeting minutes from 2004 to 2007, and his
position/job description, was not fraudulently
concealed or otherwise unavailable at the time of
his original administrative hearing. The Court also
denied Wei's motion for sanctions in an order dated
September 1, 2017. Wei then filed a motion for
reconsideration and a petition for allowance of
appeal,5 both of which were denied.
On September 4, 2018, Wei filed his third motion
to reopen the case, again arguing that newly discovered evidence contradicted key testimony of the
Department which supported the just cause to
terminate him. Wei further alleged that such
evidence establishes an ongoing fraud committed
by the Department and a lack of just cause for his
termination, which requires that the Commission's
original decision upholding his termination be set
aside.
By order mailed September 20, 2018, the
Commission denied Wei's third motion to reopen,
stating the following:
This is [Wei's] third request for the Commission to reopen and reconsider its original
adjudication of this 2007 appeal based on alleged
"newly discovered evidence." The Commission
has carefully reviewed [Wei's] current motion
and finds therein arguments that are substanWei v. State Civil Service Commission (Department of
Health). 183 A.3d 340 (Pa. 2018) (unpublished table
decision).

5

-9-

12a

tially similar to those made in his second Motion
to Reopen the Record. No new evidence that was
not also available to [Wei] when he filed his
previous motions to reopen this appeal based on
newly discovered evidence was identified by him
in this, his third Motion to Reopen. [Wei]
appealed our Order denying his second Motion
to Reopen to the Commonwealth Court. His
appeal was docketed at 1902 C.D. 2016. In an
unreported opinion filed on September 1, 2017,
the Commission's decision denying his request
to reopen the record was affirmed by the
Common- wealth Court. In the absence of any
additional evidence, which was not already
available to [Wei] for inclusion in his September
21, 2016 second Motion to Reopen, this third
Motion to Reopen is found to be entirely
frivolous and is accordingly denied on that basis.
The Commission does not find in [Wei's] third
motion any material change of fact or law, or any
new evidence that was not discernable prior to
the filing of his second. Motion to Reopen; therefore this third motion is also properly denied by
the Commission. Shoemaker v. State Retirement Board, 688 A.2d 751, 753 (Pa. Cmwlth.
1997). Moreover, it does not appear that the
Commission has the legal authority to reopen
the record of an already adjudicated appeal
under applicable Pennsylvania law See Commonwealth Department of Justice v. State
Civil Service Commission. 319 A.2d 692, 693694 (Pa. Cmwlth. 1974); 1 Pa. Code § 35.231(a).

- 10 -

13a

(Commission's 2018 Order at 1-2.) Wei thereafter
filed a petition for review with this Court.
Discussion
A. Wei's Motion to Reopen
On appea1,6161 Wei continues to make many of
the same arguments he made to this Court in Wei
I, _a and III. Wei continues to assert that the
Commission erred in ignoring material changes of
fact from its initial decision, including that the
Department falsified his job duties and his failure
to complete the same. Similar to his prior motions,
Wei also asserts that the Commission abused its
discretion by ignoring the fact that his
constitutional and due process rights were violated
in the course of his termination from employment
with the Department. In making these arguments,
Wei again relies on purported "new" evidence
obtained in his federal case.

"This Court's scope of review of a decision of the Commission
is limited to determining whether constitutional rights have
been violated, whether an error of law has been committed, or
whether substantial evidence supports the necessary findings
of fact made by the Commission." Webb v. State Civil Service
Commission (Department of. Transportation). 934 A.2d 178.
184 n.2 (Pa. Cmwlth. 2007). "Substantial evidence is such
relevant evidence as a reasonable mind might accept as
adequate to support a conclusion without weighing the
evidence or substituting the judgment of the Commission.
" Quinn v. State Civil Service Commission 703 A.2d 565 571
(Pa. Cmwlth. 1997).
6

14a

As discussed in our prior opinions, "[a] decision to
. . . reopen a record is within the discretion of an
administrative agency, and the exercise of that
discretion by the agency will not be reversed unless
a clear abuse is shown." Fritz. 468 A.2d at 539. A
petition to reopen is properly denied if there are no
material changes of fact or law or new evidence
that was not discoverable prior to the conclusion of
the hearing. Shoemaker v. State Employes' Retirement Board, 688 A.2d 751, 753 (Pa. Cmwlth. 1997).
The General Rules of Administrative Practice
and Procedure (GRAPP) provide for a petition to
reopen a case as follows:
After the conclusion of a hearing in a
proceeding or adjournment thereof sine die, a
participant in the proceeding may file with the
presiding officer, if before issuance by the
presiding officer of a proposed report, otherwise
with the agency head, a petition to reopen the
proceeding for the purpose of taking additional
evidence. The petition shall set forth clearly the
facts claimed to constitute grounds requiring
reopening of the proceeding, including material
changes of fact or of law alleged to have occurred
since the conclusion of the hearing.
1 Pa. Code §35.231(a). However, GRAPP does not
provide for the reopening of a case after the
adjudication has been issued. See Department of
Justice v. State Civil Service Commission. 319
A.2d 692, 693-94 (Pa. Cmwlth. 1974) (holding that,
in accordance with the Civil Service Act 7 and
7 Act of August 5, 1941, P.L. 752, as amended, 71 P.S.
§§741.1-741.1005.

- 12 -

15a

GRAPP, a case may be reopened prior to the
issuance of an adjudication only where there is
additional evidence to be presented).
We further note that, in this matter, an
adjudication had been issued in 2008, twice upheld
upon reconsideration, and affirmed three times by
this Court. See Wei I, II, and ///. Pursuant to 1 Pa.
Code §35.231, a case may only be reopened for the
purpose of taking additional evidence when there
have been material changes of fact or law that have
occurred since the conclusion of the hearing.
Pursuant to 1 Pa. Code §35.241, "An application for
rehearing or reconsideration may be filed by a
party to a proceeding within 15 days . . . after the
issuance of an adjudication or other final order by
the agency."
Here, Wei is again requesting that the record be
reopened for the introduction of alleged newly
discovered evidence well past the time for him to
make such a request. An adjudication has already
been issued in this case, and, as stated earlier,
GRA-PP, the Civil Service Act, and the Commission's rules do not provide for the reopening of a
case once the decision has been rendered. 1 Pa.
Code §35.231(a); Department of Justice.
Moreover, as in Wei Hand III, Wei's arguments,
even if timely made, are not persuasive. Wei again
asserts that the Department admitted in the
federal case that he was never assigned the task of
converting HARS HIV/AIDS data files. We specifically rejected this argument in Wei III and we do
so again here for the reasons articulated in Wei
- 13 -

16a

III. Wei also relies on alleged newly discovered
e-mails and Department business records that
purportedly establish inconsistencies in the testimony of certain witnesses before the Commission,
thereby perpetuating the fraud committed by the
Department before the Commission and this Court.
However, upon close review, Wei appears to be
relying on new, or in some instances, his continued
interpretation of the evidence that he had or should
have had at the time of his initial hearing before
the Commission in 2007. As we noted in Wei II,
[Wei] was aware of the Department's meeting
and was a party to the majority of the e-mail
correspondence. Thus, [Wei] has not presented
any evidence, besides his bald assertions, that
the Department fraudulently concealed any
documents from him prior to his original administrative hearing or that these records were
unavailable to him before his administrative
hearing commenced. Shoemaker; Fritz . [Wei]
merely seeks to relitigate issues decided by this
Court in Wei I, and the appropriate remedy for
such was to file a petition for rehearing within
fifteen days after the issuance of an adjudication, which occurred in 2007 in this case.
Wei II, slip op. at 9. Similarly, here, Wei fails to
explain how the Department's business records
upon which he now relies were not available to him
at the time of the original proceeding before the
Commission.
Conclusion
-14-

17a

The Commission issued its original decision in
2008 and neither MUFF', the Civil Service Act, nor
the Commission's rules provide for the reopening of
a case once the decision has been rendered.
Additionally, the Commission did not ignore
material changes of fact from its initial decision,
including alleged violations of Wei's constitutional
and due process rights. Further, Wei failed to
establish how the purported "new" evidence was
unknown or unavailable to him at the time of the
Commission's original hearing in 2007.
Accordingly, the Commission's order is affirmed.
ORDER
AND NOW, this 9th day of May, 2019, the order
of the Pennsylvania State Civil Service
Commission, mailed September 20, 2018, is hereby
affirmed.

- 15 -

18a
APPENDIX D
Pennsylvania State Civil Service Commission
Appeal No. 25485
Ming Wei, Applicant
v.
Department of Health, Appointing Authority
September 20, 2018
ORDER
AND NOW, the State Civil Service Commission
has carefully reviewed the following documents:
Appellant's Motion to Reverse and Reopen the
Case dated September 4, 2018; the Appointing
Authority's Answer to Appellant's Third Motion to
Reopen the Above Captioned Case dated September 7, 2018; and Appellant's Reply Brief to
[Appointing Authority's] Answer dated September
11, 2018. After careful consideration, Appellant's
Motion to Reverse and Reopen the case is denied
for the reasons that follow.
This is appellant's third request for the Commission to reopen and reconsider its original adjudication of this 2007 appeal based on alleged "newly
discovered evidence." The Commission has
carefully reviewed Appellant's current motion and
finds therein arguments that are substantially
similar to those made in his second Motion to
Reopen the Record. No new evidence that was not
also available to appellant when he filed his
previous motions to reopen this appeal based on
newly discovered evidence was identified by him in
this, his third Motion to Reopen. The appellant
appealed our Order denying his second Motion to
Reopen to the Commonwealth Court. His appeal
was docketed at 1902 C.D. 2016. In an unreported
-1-

20a

APPENDIX E
Commonwealth Court of Pennsylvania
961 A.2d 254 (2008)
Ming Wei, Petitioner
v.
State Civil Service Commission (Pennsylvania
Department of Health), Respondent
No. 521 C.D. 2008.
Submitted on Briefs August 29, 2008.
Decided November 25, 2008.
Ming Wei, petitioner, pro se.
Audrey Feinman Miner, Sr. Counsel, Harrisburg,
for respondent.
BEFORE: LEADBETTER, President Judge, and
FRIEDMAN, Judge, and FLAHERTY, Senior
Judge.
OPINION BY Senior Judge FLAHERTY.
Ming Wei (Wei) petitions for review pro se from
an order of the State Civil Service Commission
(Commission) which dismissed his appeal wherein
he challenged his removal from employment with
the Department of Health (Department) and
sustained the Department's action. We affirm.
Wei worked for the Department as an epidemiologist for approximately six and one-half years. In a
letter dated September 4, 2007, the Department
-1-

21a

notified Wei that he was being removed from his
position because of insubordination and unsatisfactory work performance. Specifically, the Department maintained that Wei "failed to complete the
2005 backlog data work assignment as directed by
July 31, 2007." (Commission Exhibit A.) Wei
appealed his removal to the Commission, which
conducted a hearing and made the following
determinations.
While working for the Department, Wei was the
human immunodeficiency virus, acquired immune
deficiency syndrome (HIV/AIDS) data manager.
The Pennsylvania National Electronic Disease
Surveillance System (PANEDSS) is a communicable disease reporting system which is accessed
via the internet. Medical professionals and hospitals transmit data about different communicable
diseases to the Department using PANEDSS. The
Department uses the data collected to investigate
diseases and generate reports.
Prior to December 2005, HIV/AIDS was reported
using a communicable report system called HARS
which used various software formats.' In December 2006, Veronica Urdaneta (Urdaneta), Wei's
supervisor, assigned Wei the task of converting the
HARS HIV/AIDS data files into one software format, SAS. 2 The task was solely Wei's responsibiThe full name of HARS is not provided in the record.
However, HARS is described as the system which collected
and maintained HIV/AIDS data. (Record at p. 40.)
1

The full name of SAS is also not provided in the record.
However, SAS is described as statistical software that
permits you to write a code into the software and then bring
2

22a

lity and Wei was instructed to convert the data
from 2005 only. Urdaneta did not initially give Wei
a deadline for completion.
Once the 2005 HARS HIV/AIDS data files were
converted, the Department could then assess whether data was missing, duplicated or invalid. From
that point, the Department could then assess whether it was worthwhile to input the data to PANEDSS and if so, whether an outside contractor
should perform the task.
Wei asked for a template of the data he was to
convert, which reflected that data that would later
be captured by PANEDSS. The Bureau of Informa tion Technology (BIT) provided Wei a draft layout
in January 2007 and Wei was informed that becau
-se PANEDSS was in its early stages, the layout
could change.3 Wei was repeatedly told not to test
the draft layout and that the layout would probably
change. Wei was reinstructed that his assignment
was to convert the HARS HIV/AIDS data files.

all of the different formats together and unify them into one
single format. (Record at p. 42-43.)
3 Prior to being given the assignment in January of 2007,
Weis access to PANEDSS was suspended in February, 2006
because of his failure to comply with a request that he stop
sending emails portraying PANEDSS as a system full of
errors. In July of 2006, Urdaneta restored Wei's access to
PANEDSS on the condition that any problems he had with
PANEDSS be addressed to her or Wei's supervisor. Wei was
not required to access PANEDSS to perform the data
conversion assignment.

-3-

23a

On February 6, 2007, Wei sent an email to Bob
Giallo at BIT, wherein he sent a sample of 158 real
potential cases which he wanted Giallo to test for
consistency with the draft layout. In a response, Giallo informed Wei that he was getting too deep into
the process and reminded him that the layout
would probably change. Urdaneta also testified
that she never instructed Wei to test the draft layout and, further that she instructed Wei to stop
additional communications regarding the draft
layout until she spoke with him.
In a letter dated April 4, 2007, Wei received a
written reprimand for insubordination for failing to
attend a monthly HIV/AIDS data management and
analysis meeting as instructed.
On April 9, 2007, Urdaneta informed Wei that
enough time had passed for completion of the project. She then told him to complete the project and
that he was to attach a report with his findings by
April 30, 2007. She also informed Wei that if he
didn't know how to complete the project, he was to
let Urdaneta know. Wei responded that it was a
large project to complete and that he would need a
clerk to help. Urdaneta responded that Wei was
supposed to have been working on the HARS HIV/
AIDS project when it was first assigned to him and
that she would look into providing a clerk. Wei further responded that he should not be working on
the project because it was BIT's responsibility.
Urdaneta then informed Wei that it was his, not
BIT's responsibility, and that he had a due date by
which to complete it.

-4-

24a

Wei did not complete the HARS HIV/AIDS
assignment by April 30, 2007 and a predisciplinary
conference was then conducted. At the hearing,
Wei complained that the assignment was not part
of his job duties but that of BIT, that it was a lot of
work, that it was in draft, not final form, and that
he was refusing to do it. On May 23, 2007, Wei
received a written reprimand for unsatisfactory
work performance, specifically noting his failure to
complete the HARS HIV/AIDS project. Wei was
then given an additional six weeks to complete the
project.
In June 2007, Urdaneta transferred some of
Wei's job responsibilities to other staff members so
that he could give priority to the HARS HIV/AIDS
data project. Wei informed Urdaneta that he had
transferred many of the files into the SAS format.
4Urdaneta asked Wei several times to show her his
progress on the data conversion assignment, but he
never did. In June/July of 2007, Wei was asked to
train other staff members to help gather information, but Wei scheduled only one training session.
Urdaneta again transferred some of Wei's responsibilities to a colleague.
On July 2, 2007, Wei notified Urdaneta in an
email that he was enclosing 424,598 records that
he had transferred into SAS format.141 The records,
however, were not enclosed. In a second email, Wei
informed Urdaneta that the files were too large.
Urdaneta then went to Wei's office to see the conAlso, on July 2, 2007, Wei received a written reprimand for
inappropriate behavior relating to a letter he sent his
supervisor regarding sick leave.
-5-

4

25a

verted file of records. Wei responded that he did not
have the converted files and he could not print it
out because it was too long. On July 3, 2007, Wei
was given a direct order to complete the conversion
by July 31, 2007.
On July 4, 2007, Wei asked Urdaneta for permission to take a SAS programming course. Urdaneta
denied the request because the training was more
for BIT personnel and was unrelated to Wei's data
conversion assignment.
On July 10, 2007, Wei received a five-day sus
-pension for unsatisfactory work performance for
his failure to meet the six-week deadline previously
imposed for completion of the conversion, for his
inappropriate behavior and for his insubordination.
Wei never completed the assignment to convert
the 2005 HARS HIV/AIDS data files into a single
software format. On August 24, 2007, a disciplinary conference was held at which Wei admitted
that he did not complete the conversion assignment
by the July 31, 2007 deadline. Wei was thereafter
discharged from his employment on September 4,
2007, due to insubordination and unsatisfactory
work performance.
Based on the above, the Commission determined
that the Department presented evidence sufficient
to establish just cause for Wei's removal under
Section 807 of the Civil Service Act (Act), Act of
August 5, 1941, P.L. 752, as amended, 71 P.S. §
741.807 and, further that Wei failed to present
evidence establishing discrimination under the
Act. As such, the Commission dismissed Wei's
-6-

26a

appeal challenging his removal from employment
with the Department. This appeal followed.5
Initially, Wei claims that the Commission erred
in failing to provide him a Chinese interpreter and
that the Commission was obligated to provide him
with one in accordance with the Court Interpreters'
Act, 28 U.S.C. § 1827.6 The Court Interpreters' Act
requires "the use of certified and otherwise qualified interpreters in judicial proceedings instituted
by the United Sates." 28 U.S.C. § 1827(a). The term
judicial proceedings instituted by the United
States refers to the "lawful authority and
jurisdiction of United States district court." 28
U.S.C. § 1827(j). By its terms, 28 U.S.C. § 1827,
does not apply to the Commission, as it is only
applicable to United States district courts.
Wei also claims that the Commission erred in
limiting testimony as to how HIV/AIDS data was
processed prior to 2005. The Commission has the
authority to rule on the admissibility of evidence
and "shall otherwise control the reception of evidence so as to confine it to the issues in the proThis court's review is limited to determining whether
constitutional rights have been violated, an error of law
committed, and whether necessary findings are supported by
substantial evidence. Thompson v. State Civil Service
Commission (Beaver County Area Agency on Aging). 863
A.2d 180 (Pa.Cmwlth. 2004) petition for allowance of appeal
denied, 583 Pa. 685, 877 A.2d 463 (2005).
5

Wei does not inform this court of whether he asked the
Commission for an interpreter and, if so, where in the
Commission transcript such request was made.

6

-7-

27a

ceeding." 1 Pa.Code § 35.162. Evidence is considered relevant and probative if it tends to
establish a fact material to the case or tends to
make facts at issue more or less probative. Commonwealth v. Gibson, 264 Pa.Super. 548, 400
A.2d 221,.223 (1978). We agree with the Commission that Wei was given an assignment in 2006 to
convert the HARS HIV/AIDS 2005 data. How these
files were previously processed was immaterial to
the issue of whether Wei completed a prioritized
assignment given to him by his supervisors. As
such, we find no error in the Commission's decision
to limit testimony.
Wei also takes issue with a number of the Commission's findings. Specifically, he claims that
contrary to the Commission's findings, he was not
the only one assigned to the HARS HIV/AIDS
conversion project, that he did forward progress
reports to Urdaneta, and that he did need special
training to complete the project. According to the
testimony of Urdaneta, which was credited by the
Commission, she repeatedly informed Wei that it
was his responsibility and no one else's to complete
the project and that despite her requests, Wei did
not provide her with progress reports. Based on
Urdaneta's testimony, the Commission also concluded that Wei did not need additional training to
complete the project as he already possessed all the
skills necessary to complete the project. Although
Wei's testimony differed from that of Urdaneta, it
is the Commission which determines credibility.
State Correctional Institution at Graterford v.
Jordan, 95 Pa.Cmwlth. 475. 505 A.2d 339 (1986).
-8-

28a

Next, Wei claims that the Department did not
meet its burden of proving just cause for his removal under the Act. In Galant v. Department of
Environmental Resources, 534 Pa. 17, 20 n. 2, 626
A.2d 496, 498, n. 2 (1993), the Court stated that
just cause "must be merit-related and the criteria
must touch upon [the employee's] competency and
ability in some rational and logical manner." "What
constitutes ample just cause for removal must necessarily be largely a matter of discretion on the
part of the head of the department. To be sufficient,
however, the cause, should be personal to the employee] and such as to render him unfit for the
position he occupies...." Woods v. State Civil Service Commission (New Castle Youth Development
Center), 590 Pa. 337, 345, 912 A.2d 803. 809 (2006
1. The Commission is the sole fact finder and has
exclusive authority to assess credibility and resolve
evidentiary conflicts. Hetman v. State Civil Service
Commission Meths County Children and Youth
), 714 A.2d 532 (Pa.Cmw1th.1998),fietition for
allowance of appeal denied, 558 Pa. 634, 737 A.2d
1227 (1999).
Here, Wei was terminated for not completing
the HARS HIV/AIDS assignment by July 31, 2007.
While the Department maintains that Wei was
given ample resources and time within which to
complete the assignment, and the Commission
found as such, Wei claims that he did not receive
help, training, or enough time to complete the
project. Specifically, Wei claims that it was not his
responsibility to convert the 2005 HARS HIV/AIDS
data files. However, as found by the Commission, a
series of emails sent to Wei by Urdaneta reveals
-9-

29a

that Wei was repeatedly informed that he was to
complete the assignment and that it was his responsibility and not the responsibility of PANEDSS and BIT. The e-mails evidence that for six
months Wei was insubordinate in refusing to
accept responsibility for the assignment that was
his to complete.
That Wei was given enough time and assistance
to complete the assignment is also supported by the
testimony of Urdaneta. Specifically, Urdaneta
reassigned some of Wei's job duties in June of 2007,
so that he could concentrate on the project. She
also asked Wei to train other staff members to
assist him, but Wei was uncooperative and only
held one such training session. Wei was repeatedly
given extensions within which to complete the
assignment, yet failed to do so. Even when asked
by Urdaneta whether he did not know how to complete the project, Wei never stated that he was
incapable of completing it. Rather, his excuses for
not completing the project centered on his contention that the project was not his responsibility and
that it was large. Further, during the six month
period in which Wei had the project, Wei did not
show any significant progress on the assignment,
even after disciplinary action was taken due to his
lack of progress.
As stated by the Commission, Wei's insubordination and unsatisfactory work performance provided just cause for his removal inasmuch as it had a
direct impact on his job performance. As the HIV
/AIDS data manager, Wei was charged with collecting and reporting HIV/AIDS data accurately.
-10-

30a

Since Wei failed to complete or make progress on
the project given to him, even though he was capable of doing such project, was offered help on the
project, was relieved of certain duties in order to
complete the project and had been reprimanded for
not having completed the project, the Commission
properly found that the Department had just cause
for Wei's removal.
Next, Wei claims that the Commission erred in
rejecting his discrimination claim. In accordance
with Section 905.1 of the Act, added by Section 25
of the Act of August 27, 1963, P.L. 1257, 71 P.S. §
741.905a, "Ho officer or employee of the Commonwealth shall discriminate against any person ...
because of race, national origin or other non-merit
factors." An employee claiming discrimination in a
personnel action has the burden of presenting
evidence to support such a charge. State Correctional Institution at Pittsburgh, Department of
Corrections v. Weaver, 146 Pa.Cmwlth. 381, 606
A.2d 547, petition for allowance of appeal denied
, 531 Pa. 648, 612 A.2d 986 (1992). In doing so, an
employee claiming disparate treatment must
demonstrate that he was treated differently than
other employees similarly situated. Bruegeman v.
State Civil Service Commission, 769 A.2d 549 (Pa.
Cmwlth.2001). When the initial burden of proof is
met, the burden of production shifts to the employer to advance a legitimate non-discriminatory
reason for removal. Commonwealth of Pennsylvania, Department of Health v. Nwoewugwu, 141
Pa.Cmwlth. 33, 594 A.2d 847 (1991). Then, the
presumption of a prima facie case is rebutted and
the employee must then demonstrate by a prepon- 11 -

31a

derance of the evidence that the employer's articulated reason was merely a pretext for discrimination and not the actual motivation behind its
decision. Id.
Here, Wei maintains that his removal was
motivated by his national origin, his criticism of
PANEDSS and his health condition. Wei argues
that he was singled out to perform the HARS HIV
/AIDS assignment and that no one else was given
such a large task nor was anyone else fired for not
completing the task. The Commission credited the
testimony of Urdaneta that Wei was given the assignment because other employees in the HIV/AIDS
section lacked the necessary expertise. Thus, Wei's
claim that no one else was fired for not having completed the task is of no moment, as he was the only
one assigned to the task.
Wei also claims that the suspension of his PANEDSS password was discriminatory. Removal of
Wei's password did not affect Wei's employment
status, nor did it prohibit his ability to complete the
HARS HIV/AIDS assignment because he did not
need the password to complete the assignment.
Wei's password was suspended because of his criticism of PANEDSS. Wei was informed by Urdaneta that his password would be restored once he confined his criticism of PANEDSS only to her. Wei
likens his complaints about PANEDSS to that of a
whistleblower complaint,implying that the Department retaliated against him because of his complaints. The Whistleblower Law, Act of December
12, 1986, P.L. 1559, 43 P.S. §§ 1421-1428, provides
that an employer may not discharge an employee
-12-

34a

wasn't able to show me that information.
(Commission hearing p. 61.)
Contrary to Wei's assertion, in both of the
proceedings, Urdaneta consistently testified that
she was not shown the 424,000 records.8
In the remainder of Wei's brief, he continues to
complain that the HAM HIV/AIDS conversion was
not his responsibility, that more individuals should
have been assigned to the task, and that the
finding that he did not show data regarding his
progression on the assigned task, is false. These
issues have been previously addressed and we
again note that the Commission is the determiner
of credibility.
In accordance with the above, the decision of the
Commission is affirmed.
ORDER
Now, November 25, 2008, the Order of the State
Civil Service Commission, in the above-captioned
matter, is affirmed.

Wei also takes issue with testimony presented by Ms.
Burnhauser. A review of the testimony before the Board and
Commission reveal that Ms. Burnhauser consistently
testified that she never saw any tangible evidence that Wei
had completed the assignment.

- 15 -

Received 6/4/2019 11:29:47 AM Commonwealth Court of Pennsylvania
/4/2019 11:29:00 AM Commonwealth Court of Pennsylvania
1321 CD 2018

COMMONWEALTH OF PENNSYLVANIA
GOVERNOR'S OFFICE OF GENERAL COUNSEL

June 4, 2019

Michael F. Krimmel, Chief Clerk
Commonwealth Court of Pennsylvania
Filing Office
Pennsylvania Judicial Center
601 Commonwealth Avenue
Harrisburg, PA 17120-9185

RE:

Wei v. State Civil Service Commission (Department of
Health); Docket No. 1321 C.D. 2018 (Pa. Cmwlth.)

Dear Mr. Krimmel,
Pursuant to Pennsylvania Rule of Appellate Procedure 2545, Respondent Commonwealth
of Pennsylvania, Department of Health (hereinafter "DOH') does not intend to file and answer to
Petitioner Ming Wei's Application for Reconsideration (hereinafter "Application") in the abovereferenced case. Notably, DOH contends that Petitioner Wei's Application is meritless.
Notwithstanding this letter, pursuant to Pennsylvania Rule of Appellate Procedure 2545(a),
DOH's decision not to file and Answer to Petitioner Wei's Application cannot be construed as a
concurrence in Petitioner Wei's request. See Pa. R.A.P. 2545(a).
Respectfully submitted,
/s/Jonathan D. Koltash
Jonathan D. Koltash
Assistant Chief Counsel
Attorney I.D. 206234

cc:

Ming Wei (by First-Class Mail and Electronic Filing)
Elizabeth Lawson, Chief Counsel, State Civil Service Commission
(First-Class Mail only)

OFFICE OF LEGAL COUNSEL I DEPARTMENT OF HEALTH
Room 825 Health and Welfare Building
625 Forster St I Harrisburg, PA 17120-0701
Ph: 717-783-2500 I Fax:717-705-6042 I www.health.pa.gov

pennsylmania
DEPARTMENT OF HEALTH

